fj
* i.

Supreme Court, U.S.
FILED

ft

OCT 0 2 2D20

-1157

<•
■ v

■

IN THE
i

Supreme Court of tfje fHmteti States
MICHELLE STOPYRA YANEY,

■ 4

Petitioner,
V.

SUPERIOR COURT COUNTY OF RIVERSIDE,
The Honorable Judge Kira Klatchko,
Respondents.
On Certiorari to the California Supreme Court
PETITION FOR WRIT OF CERTIORARI
There are Related Cases in This Court

Michelle Stopyra Yaney
3905 State St. Ste. 7-295
Santa Barbara, Ca. 93105
805-453-1376
Propria Persona

OFFICE OF THE CLERK

3

THERE ARE RELATED CASES:
Yaney v. the State Bar of California
currently pending certiorari in this court
S263130 AND S263808.

PARTIES TO THE PROCEEDING
The California Supreme Court.

R and J Professional Movers aka Raymond Turner
15350 Little Morongo Rd. Unit #154
Desert Hot Springs, Ca. 92240
(760) 848-9194
The State Bar of California
Office of General Counsel
180 Howard Street
San Francisco, Ca. 94105
(213) 765-1000

CORPORATE DISCLOSURE STATEMENT
Petitioner, Michelle Stopyra Yaney, does not have
any interest or ownership in any company or subsidiary.

2

THE QUESTION PRESENTED
Petitioner asked an important question to the
California Supreme Court in the case brought. It was
about the COVID-19 pandemic, which is still happening,
the question is much more relevant now.
The question to the California Supreme Court was:
“Did the lower court of appeal have broad discretion
to not address the alleged bias and summarily deny the
writ of mandate during the current pandemic of COVID 19, moreover does a court have to consider a petitioner’s
health status or if they would have a higher rate of
mortality if infected with COVID-19, prior to denying
relief that could significantly lessen their chances of being
exposed to the virus?”
The question presented is:
Whether a court has to consider a petitioner’s health
status or if they would have a higher rate of mortality if
infected with COVID-19, prior to denying relief that could
significantly lessen their chances of being exposed to the
virus?
Furthermore, is new law under uniformity needed
for a court to rule on a pre-existing medical condition that
increases a litigant’s chances of dying from COVID-19 as
reason for the relief they are seeking?

5

Writ of Certiorari
♦
Petitioner, Michelle Stopyra Yaney, respectfully
petitions for a writ of certiorari to review the final
judgment of the California Supreme Court on case
S263360.
Petitioner is “disabled” as defined in Section
1614(a)(3)(A) of Title XVI of the Social Security Act within
the meaning of 42 U.S.C. §3602(h) and Cal. Gov’t Code
§12955.3.

DECISIONS BELOW
APPENDIX A
A summary denial of a petition for review on
September 9,2020 by the highest state court the,
California Supreme Court case, S263360.
APPENDIX A PART 2
Docket of case, S263360.
APPENDIX A PART 3
Temporary filing only in truefiling no file stamped
copy available.

6

APPENDIX B
The decision of the lower court; the Court of
Appeal Fourth District Division Two. A summary denial
of an original action a writ of mandate entitled Yaney v.
Superior Court of Riverside County, Case E075215.
The writ was submitted by petitioner Yaney during
appeal case E073428. Yaney v. Turner PSC1901542.
APPENDIX B PART 2
The court of appeal history of rejected submissions
for case E075215.
APPENDIX C
Petition for Review with received stamp of original
copy only available to petitioner on Tru-filing.
APPENDIX D
Motion for Exceptional Evidence and Volume 1 of
Exhibits in Support of Motion for Exceptional Evidence.

JURISDICTION (Rule 14.1 (e))

♦
The Supreme Court of California entered a final
judgment, case S263360 on dated September 9, 2020. The
California Supreme Court does not allow for a rehearing
or a reconsideration of the final judgment brought to this
petition.

7

There are two other orders of the same court that
were sent with this order for consideration of a writ of
certiorari. This Court returned petitioner’s certiorari for
correction requesting she remove this order and she has
done so submitting this separate petition on case
S263360, E075215.
This is timely due to the March 19, 2020 order of,
this Court that extended the deadline to file a petition for
a writ of certiorari in all cases due on or after the date of
that order to 150 days from the date of the lower court
judgment, order denying discretionary review, or order
denying a timely petition for rehearing.
Petitioner explained to this court she hoped the
appeal that is pending would be decided before the 150day deadline. It is under this order and on this day, it has
not been decided, Yaney v. Turner E073428.
This Court’s jurisdiction is under the United States
Constitution, Article III, Section V The judicial power of
the United States, shall be vested in one Supreme Court,
and such inferior courts as the Congress may from time to
time ordain and establish.
This Court’s jurisdiction for Certiorari is under 28
U.S.C. § 1257. (a) Final judgments or decrees rendered
by the highest court of a State in which a decision could be
had, may be reviewed by the Supreme Court by writ of
certiorari.

8

Rules 10 and 11 (hereinafter, “Rule 10” and Rule
11”). Rule 10. Considerations Governing Review on
CertiorariReviewonawritofcertiorari is not a matter of
right, but of judicial discretion. A petition for a writ of
certiorari will be granted only for compelling reasons. The
following, although neither controlling nor fully
measuring the Court's discretion, indicate the
character of the reasons the Court considersUnited States Court of Appeals has entered a
decision in conflict with the decision of another United
Statescourtof appeals on the same important matter; has
decided an important federal question in a way that
conflicts with a decision by a state court of last resort! or has
so far departed from the accepted and usual course of
judicial proceedings, or sanctioned such a departure by a
lower court, as to call for an exercise of this Court's
supervisory power.
a) a state court of last resort has decided an
important federal question in a way that conflicts
with the decision of another state court of last
resort or of a United States court of appeals.
b) a state court or a United States court of appeals
has decided an important question of federal
law that has not been but should be, settled by this
Court, or has decided an important federal
question in a way that conflicts with relevant
decisions of this Court. A petition for a writ of
certiorari is rarely granted when the asserted
error consists of erroneous factual findings or
the misapplicationofaproperlystatedruleoflaw.

9

Rule 11 because this case “is meant to prevent
further harm as to justify deviation from normal
appellate practice and to require immediate
determination of this Court.”

CONSTITUTIONAL PROVISIONS
Amendment XIV Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the state wherein they reside. No state
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;
nor shall any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the
laws.

STATEMENT OF PROCEDURE
Petitioner brought to the California Supreme Court
their own case, Melde v. Reynolds {1900) 129 Cal. 308,
“The discretion of the court ought always to be
exercised in conformity with the spirit of the law, and in
such a manner as will subserve rather than impede or
defeat the ends ofjustice, regarding mere technicalities as
obstacles to be avoided rather than as principles which
effect is to be given in derogation ofsubstantial right. ”

10

Petitioner stated the following exactly to the
California Supreme Court:
There are new cases of COVID19 this was predicted
when the Center for Disease Control (CDC) announced
that the gathering of people in protest of George Floyd’s
death. It is also very hot outside temperatures are rising.
Appellant was granted a writ of possession for her truck
and it is the only vehicle with air conditioning that she
has access to. Petitioner she does not have secure shelter
in the State of California, and it is dangerous because it
exposes her to COVID-19 much more than normal; it is
hard to obey a stay-at-home order when there is no home.
This court by granting relief will be allow petitioner
shelter in the State of California immediately.
Additionally, there is a medical reason why a regular
appeal will not suffice. Petitioner takes antibiotics for her
disability every day and has done so for the last 30 years,
it is the alternative to the harsh steroid, Prednisone.
Antibiotics are the best anti- inflammatory, except for
what they do to one’s immune system, causing them not
to work when they are needed for a bacterial or viral
infection; this puts petitioner in the “high-risk” category
for survival if she were to contract COVID-19.
At the time petitioner submitted the petition for
review she was homeless and needed to sleep in her
vehicle the lower court of appeal to send her case back
down to the trial court so the ex parte writ of possession
granted to her could be reconsidered in a hearing on the
removal of it.

11

The appeal pending in the, case E073428 entitled!
Yaney v. Turner has pended for almost two years and it is
about personal property being withheld.
Petitioner a disabled woman dismissed the case in a
hearing unexpectedly while suffering panic/anxiety from
what she believed was extreme bias by the trial court
judge. The trial court judge allowed it even though it was
after the appeal was filed.
The writ of mandate case E075215 was filed by
petitioner because numerous opening briefs had been
rejected by the court of appeal for procedure that was not
important.
On the exact day being July 7, 2020 of the summary
denial, petitioner called and spoke to the court of appeal’s
supervising clerk stating she was going to augment the
pending case in the California Supreme Court for
consideration of the extraordinary relief. The case is
currently pending review in this court it is case S263130,
Yaney v. the State Bar of California.
The case is about petitioner’s own attorneys being
misled and not speaking to her causing the loss of the
home she owned as a disabled woman. It is the case that
began all the cases.
Petitioner lost the home she owned under a
summary proceeding the swift California unlawful
detainer statute! it was not statutory. This left petitioner
a liability to her state something she has tried to clear up.

12

The summary denial of case E075215 was on the
same day! in the afternoon that petitioner noticed the
augment.
The court of appeal requested so many corrections to
the writ of mandate it was obvious that it was a waste of
time. The record of all the corrections is attached in
Appendix B Part 2.
Petitioner brought to all the cases having
jurisdiction presently in this court why she believed her
possessions are withheld when she seeks a simple service
in her community since she appealed the first case and
the loss of her home. There have been four cases all
together. Petitioner discovered a similarity within all the
cases regarding erroneous liens which petitioner believes
is the goal for her personal property, and then she loses
what she has.
It is retaliation for petitioner believing as a proper
a court will consider her it is tangible in the record and it
is the opposite of what the equal protection clause stands
for.
Petitioner brought all the documents showing a false
ledger to case S263130 they were done by the attorney
who opposed her in the first case. Petitioner asserted she
understands it was what he needed to uphold the
judgment for her home. Petitioner marked disability
discrimination on her answer for the first case. Sky Valley
v. Yaney PSC1303128.

13

Petitioner prayed to the California Supreme Court
in the petition for review that the lower court of appeal
direct the Superior Court of Riverside County Palm
Springs Division, Judge Kira Klatchko to reinstate
petitioner’s case allowing it to proceed to jury trial.
Petitioner prayed that a rewind of time be
designated allowing jurisdiction for the correction and
execution of the ex parte writ of possession granted to her
on April 17, 2019.
Petitioner brought to the California Supreme Court
the following:
It may be appropriate to request that the Court
grant review to transfer the case back to the court of
appeal with directions. For example, if the court of appeal
summarily denied a petition for writ of mandate, the
petitioner may ask the Supreme Court to grant review and
transfer the matter back to the court of appeal for further
proceedings. (Cal. Rules of Court, rule 8.500(b)(4),
8.528(d).)
Petitioner brought the following jurisdiction to the
California Supreme Court; This court has the express
authority to review the entire cause upon the filing of a
petition for review. (Cal. Rules of Ct., rule 8.516(a)(2).
Also, if review is “necessary to secure uniformity of
decision or to settle an important question of law”? (Cal.
Rules of Court, rule 8.5000(b)(1). Under this rule, the
Supreme Court sits as a “court of precedent,” granting
review to issue rulings that the Supreme Court perceives
are needed by parties, lawyers, and judges in areas the
Supreme Court deems important.

14

Petitioner brought the following regarding an
extraordinary writ to the Supreme Court of California.
As this court has cautioned on many occasions, the
term "jurisdiction" carries a variety of meanings, "In
certiorari and prohibition proceedings the term jurisdiction
has a very broad meaning, and a writ may be granted where
the court has no jurisdiction to act except in a particular
manner, even though it has jurisdiction, in the fundamental
sense, over the subject matter and the parties." (Rescue
Army v. Municipal Court (1946) 28 Cal. 2d 460, 463-464
[171 P.2d 8].)
It may be appropriate to request that the Court grant
review to transfer the case back to the court of appeal with
directions. For example, if the court of appeal summarily
denied a petition for writ of mandate, the petitioner may
ask the Supreme Court to grant review and transfer the
matter back to the court of appeal for further proceedings.
(Cal. Rules of Court, rule 8.500(b)(4), 8.528(d).)
Petitioner also brought the following.
That in rare cases, where the court of appeal has
committed obvious error, the Supreme Court may “grant
and transfer” with instructions to the court of appeal to
apply established law. But such instructions are not always
followed. (E.g., Lane v. Hughes Aircraft, No. S059064 (Mar.
19, 1997 docket entry: “Petition for review granted;
transferred to CA 2/7 with directions to vacate its decision
& reconsider in light of Neal v. Farmers Insurance
Exchange (1978) 21 Cal.3d 910, 932-933 and Jones v.
Citrus Motors Ontario, Inc. (1973) 8 Cal.3d 706, 710- 711.”)

15

REASONS FOR GRANTING THE WRIT
What is the equal protection clause in simple terms?
The Fourteenth Amendment's Equal Protection
Clause requires states to practice equal protection. Equal
protection forces a state to govern impartially—not draw
distinctions between individuals solely on differences that
are irrelevant to a legitimate governmental objective.
Most recently this court’s justice, Justice Gorsuch
stated something simple that will resonate for years and
applies here! it was in the 2020 case, the Bostock v.
Clayton County a decision, which banned employment
discrimination against LGBTQ workers, used a similar
analysis. Even though it was based on Title VII of the
1964 Civil Rights Act.
Justice Gorsuch wrote:
“Those who adopted the Civil Rights Act might not
have anticipated their work would lead to this particular
result. • • • But the limits of the drafters’ imagination
supply no reason to ignore the law’s demands ... Only the
written word is the law, and all persons are entitled to its
benefit.”
A writ of mandate during COVTD-19 can issue
immediately for the fact one is more susceptible to the
illness and the court is aware they have lost their home.
Hopefully, this court will emphasize this and in doing so
it will bring the importance of all of us being better to one
another at this time. All our lives are at risk.

16

The court of appeal is not able to rule for petitioner
since the first judgment for her home. The head clerk
explained this and petitioner now understands.
What has been discovered and has been brought to
the court of appeal makes this case cert-worthy.
The motion filed by petitioner on December 18,2020
is a motion for Exceptional Evidence, and it is about what
was perceived to be happening in petitioner’s life that she
was unaware of during all the cases. It is about the
actions of those who stood to gain financially in her family
if a court could not rule for her.
The motion has pended since December and the
court of appeal has not ruled on it knowing petitioner
would suffer retaliation. They choose to defer it as they
have everything petitioner has submitted.
The motion contains documents that did not allow
petitioner access to her elderly mother easily and they
show her mother unknowingly was convinced to sign a
living will that did not allow her doctors to help sooner.
The documents were done by petitioner’s first cousin
who is an attorney and stands to gain financially due to
valuable property left to petitioner’s mother. Petitioner is
the only obstacle, and it is her belief for years as she
pursued relief in the courts, he and others began
erroneous investigations preventing her from having a
court rule in an impartial way.

17

The motion caused petitioner to be investigated and
it concluded that her mother was allowed to stay with her
and that she could protect her best.
Petitioner’s mother is now suffering from a terminal
illness that is treatable of found on time she will die and
petitioner tired to access her over a year ago when it
started.
This court can only ask itself was it misled as the
reason for past denials, if so, please help now. Petitioner
and her mother need this court to remand this case along
with the other ones pending so liability of those who were
misled does not affect petitioner’s mother’s ability to
obtain medical care.
The motion currently pending in the court of appeal
for exceptional evidence is attached in EXHIBIT C.
This court has the power to emphasize the
importance of communication during the COVID-19
pandemic and the fact all of us should be better to one
another at this time.
THIS COURTS GVR PRACTICE
Petitioner respectfully requests GVR by this court.
The history of GVR practice does allow litigants to seek
the benefit of changes in the law that occur even after
final action by the courts of appeals (or state high courts).
And, perhaps more importantly, the GVR practice reflects
an institutional choice: namely, that it is this Supreme
Court rather than some other court that will take
cognizance of these changes.

18

In Lawrence v. Chater, 516 U.S. 163, 167 (1996)
(explaining that the Court issues a GVR when there is "a
reasonable probability that the decision below rests upon
a premise that the lower court would reject if given the
opportunity", see Tyler v. Cain, 533 U.S. 656, 666 (2001).
Typical language is; "The petition for a writ of certiorari
is granted. The judgment is vacated, and the case is
remanded to [the relevant lower court] for further
consideration in light of [the relevant recent event]." In
issuing a GVR, the Court does not determine the
intervening event. Thus, the purpose of the GVR device is
to give the lower court the initial opportunity to consider
the possible impact of intervening developments. In the
case Cayuga Indian Nation of N.Y. v. Pataki, 413 F.3d
266, 273, 280 (2d Cir. 2005)(relying on a new Supreme
Court case to reverse a district court decision that was the
culmination of over two decades of litigation). Rather than
applying new law itself, a court of appeals can return the
case to the district court so that the district court can
apply the new law in the first instance-a procedure
analogous to the Supreme Court's GVR. See, e.g., Vicknair
v. Formosa Plastics Corp., 98 F.3d 837, 839 (5th Cir.
1996). The point is simply that the court of appeals
generally is not free to ignore the intervening
developments and decide the case based on the law
prevailing at the time of the district court's judgment. In
the case Youngblood v. West Virginia, which raised the
profile of the GVR practice even though Youngblood was,
if truly a GVR at all, a very unconventional one. As
already stated, the usual reason for issuing a GVR is to
allow the lower court the initial opportunity to consider

19

an intervening development. In Youngblood, the Court
provided a short per curiam opinion (itself unusual for a
GVR) explaining that the reason for the remand was to
allow the court below to address the defendant's facially
plausible claim, adequately presented to the lower court
yet not discussed in its opinion, that prosecutor shad
withheld evidence in violation of Brady v. Maryland, a
case decided over forty years ago. Thus, if the lower court's
decision in Youngblood was doubtful, it was not because
of any intervening event as in the typical GVR. Yet while
the Supreme Court was moved enough to take some action
(rather than simply denying certiorari, as it does for
countless incorrect decisions), it was not moved enough to
grant plenary review or even to issue a summary reversal.
Instead, it GVR'd because " [i]f this Court is to reach the
merits of this case, it would be better to have the benefit
of the views of the full Supreme Court of Appeals of West
Virginia on the Brady issue. When certiorari was initially
denied in several cases challenging criminal sentences,
petitions for rehearing were filed while this Court
considered the certiorari petition in United States v.
Booker, 543 U.S. 220 (2005) (certiorari granted Aug. 2,
2004). After this Court granted certiorari in Booker and
resolved the case on the merits, this Court then granted
hundreds of rehearing petitions and GVR’d in light of
Booker. See, e.g., Hawkins v. United States, 543 U.S. 1097
(2005) (“Petition for rehearing granted. Order denying the
petition for writ of certiorari vacated. Petition for writ of
certiorari granted. Judgment vacated, and case remanded
in light of United States v. Booker.”).

20

The GVR practice reminds us that, notwithstanding,
its unique role as the final expositor of the national law,
this Supreme Court remains a court that operates within
the judicial system and derives its authority to announce
legal rules from a grant of jurisdiction over individual
cases and controversies.

Please act upon this petition.
Respectfully submitted, February 5, 2020.

'injvJkjJXa
Michelle Stopyra Yaney

21

CERTIFICATE OF WORD COUNT
I certify that the text of this PETITION FOR
REVIEW as counted by the Microsoft Word processing
software, consists of 8214 words (including footnotes but
excluding the tables of contents and authorities, this
certificate, and the attached proof of service).
Signed under the penalty of perjury on February 5,
2021.,

'TR'chSt*
Michelle Stopyra Yaney

22

VERIFICATION
I am the petitioner in the above-entitled action
having read the foregoing enclosed WRIT OF
CERTIORARI.
I verify that all the facts alleged therein or
otherwise and supported by citations to the record are true.
Signed under the penalty of perjury on February 5,
2021.

Michelle Stopyra Yaney

